HOUSE OF REPRESENTATIVES COMMITTEE ON

        HOUSE ADMINISTRATION

     SUBCOMMITTEE ON ELECTIONS

      TESTIMONY OF CURTIS CRIDER

         INSPECTOR GENERAL

 U.S. ELECTION ASSISTANCE COMMISSION


             MARCH 2008
Chairwoman Lofgren, Ranking Member McCarthy, and members of
the Subcommittee:


Thank you for the opportunity to discuss the activities of the Office of
Inspector General (IG), U.S. Election Assistance Commission. In its
year and one half of existence, the IG Office, which currently consists
of me and a contractor, has concentrated on two areas – use of Help
America Vote Act funds by states and internal administrative
operations of the Commission. In addition, the Office of Inspector
General has completed one investigation and has one investigation in
process. The investigations were performed for EAC by the Office of
Inspector General for the Department of the Interior.


The focus of my testimony is on the internal operations the
Commission. Pertinent audits covered Commission travel and
Commission program and financial controls.


Audit of Travel


The objective of the audit was to determine whether (1) travel was
performed in accordance with the Federal Travel Regulation (FTR), (2)
travel cards were properly controlled and used for only official
purposes and, (3) travelers paid their travel card bills in a timely
manner.


The audit found that the Commission did not follow the Federal
Travel Regulations in performance of travel. The audit identified
errors in 91 percent of the travel packages, that is authorizations
and vouchers, examined. While the majority of the errors were
minor, such as claiming taxes as part of the lodging rate, some
were more significant, such as traveling to a location that was not
authorized or claiming a lodging rate that exceeded the
authorized rate. Overall, the mistakes demonstrated a need for
independent controls and clear instructions on the preparation
and approval of authorizations and vouchers, and for effective
reviews of the accuracy of the travel claims.


We also noted a need for procedures to ensure that international
travel is essential to the EAC mission and that employees
receive compensatory time when traveling on their own time.


Finally, we concluded that travel cards were adequately
controlled and used for official purposes and that travelers
generally paid their travel card bills on time.


On July 5, 2007, we recommend that the Executive Director:


     1. Implement written procedures for conducting temporary duty
        travel.


     2. Implement written procedures for approving only international
        travel that is essential to accomplishing the mission of EAC.
     3. Modify the procedures for approval of travel funded by non-
          Federal sources to provide for an independent determination of
          whether the travel is desired and practical.


     4. Implement written procedures for authorizing and tracking of
          compensatory time for official travel outside of regular working
          hours.


None of the recommendations have been implemented. On March 6,
2008, the Executive Director indicated that the EAC is in process of
reviewing draft internal policies and procedures for the control of
travel.


Assessment of the Commission’s Program and Financial
Operations


The purpose of the review was to identify the programs and
administrative activities performed by the Election Assistance
Commission and to assess the vulnerability of those programs and
activities to adverse impacts such as mismanagement, waste, and
fraud.


This assessment identified a need to immediately address long-
standing and over-arching weaknesses related to Commission
operations. Specifically, the assessment disclosed that the
Commission lacked:
    Short and long-term strategic plans, performance goals and
      measurements to guide the organization and its staff.


    An organizational structure that clearly defines areas of
      responsibility and an effective hierarchy for reporting, especially
      between the Commissioners and the Executive Director. The
      staff needs to know who is in charge.


    Appropriate and effective internal controls established on the
      basis of risk assessments.


    Policies and procedures in all programs areas to document
      governance and accountability structure and practices in place.


The report made 29 recommendations to address the issues identified
in the report.


In response, the Executive Director developed an action plan with
milestones to address the issues identified in the report. The OIG will
meet with the Executive Director on a monthly basis, to monitor the
status of the corrective actions.


Conclusion


The Commission lacks an effective management and organization
structure. What it has been able to accomplish, in my opinion, is due
to the drive of individuals not the organization.
The Commission needs to make substantial improvements in its
operations. The basic components for a sound organization - - goals,
objectives, plans, policies and procedures still do not exist despite 3
years of operations.       Furthermore, it is imperative that the
Commissioner’s define their roles and responsibilities and those of the
Executive Director to ensure that management decisions are made, in
a consistent, timely and non partisan fashion.


That concludes my written testimony and I will be happy to respond to
any question that the Subcommittee may have.
